No. 19-689

Fn the Supreme Court of the Anited States

MARK CHAPMAN et al,
Petitioners,

Vv.

ACE AMERICAN INSURANCE COMPANY,
Respondent.

On Petition for a Writ of Certiorari to the United States Court of Appeals for the
Eleventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
Petitioners contains 2,979 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

‘

JOSEPH D. MAGRI
SEAN M. MCFADDEN
Merkle & Magri, P.A.
5601 Mariner St., Ste. 400
Tampa, Florida 33609
Tel: (813) 281-9000
jJmagri@merklemagri.com

Subscribed and sworn before me this 10th day of February, 2020.
I am authorized under the laws of the State of Florida to administer oaths.

ANGELAS. MERKLE
MY COMMISSION # GG 136352 Lb i. Vorkelo
: i (Nota 'y)

 
